APPENDIX

APPENDICES

Document

Contents

Page

Appendix A - Ninth Circuit Amended Opinion
and Denial of Rehearing Petitions
May 4, 2020 ............................................................... 1a
Appendix B - Ninth Circuit Original Opinion
March 16, 2020 ....................................................... 18a
Appendix C - District Court Order
(Dismissing Second Amended Complaint)
May 9, 2018 ............................................................. 34a
Appendix D - District Court Order
(Dismissing First Amended Complaint)
January 31, 2018 .................................................... 51a

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DENISE DANIELS; THE
MOODSTERS COMPANY,
PlaintiffsAppellants,
v.
THE WALT DISNEY COMPANY;
DISNEY ENTERPRISES, INC.;
DISNEY CONSUMER
PRODUCTS AND INTERACTIVE
MEDIA INC.; DISNEY
INTERACTIVE STUDIOS, INC.;
DISNEY SHOPPING, INC.;
PIXAR,

No. 1855635
D.C. No.
2:17-cv-04527PSG-SK

ORDER AND
AMENDED
OPINION

DefendantsAppellees.
Appeal from the United States District Court
for the Central District of California
Philip S. Gutierrez, District Judge, Presiding
Argued and Submitted November 6, 2019
Pasadena, California
Filed March 16, 2020
Amended May 4, 2020

2a
Before: Jerome Farris, M. Margaret McKeown, and
Barrington D. Parker, Jr., * Circuit Judges.
Order;
Opinion by Judge McKeown
_________________________________________________
SUMMARY **
_________________________________________________
Copyright
The panel filed (1) an order amending its opinion,
denying a petition for panel rehearing, and denying on
behalf of the court a petition for rehearing en banc;
and (2) an amended opinion affirming the district
court’s dismissal of an action alleging copyright
infringement by the Disney movie Inside Out of
plaintiffs’ characters called The Moodsters.
Affirming the denial of plaintiff’s claim under the
Copyright Act, the panel held that The Moodsters,
lightly sketched anthropomorphized characters
representing human emotions, did not qualify for
copyright protection because they lacked consistent,
identifiable character traits and attributes and were
not especially distinctive. The Moodsters also did not
* The Honorable Barrington D. Parker, Jr., United States
Circuit Judge for the U.S. Court of Appeals for the Second
Circuit, sitting by designation.

** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
qualify for copyright protection under the alternative
“story being told” test.
The panel also affirmed the district court’s denial
of plaintiff’s claim for breach of an implied-in-fact
contract under California law, based on her disclosure
of information about The Moodsters to various
employees of Disney and its affiliates.
_________________________________________________
COUNSEL
Patrick Arenz, Esq.(argued), Ronald J. Schutz and
Brenda L. Joly, Robins Kaplan LLP, Minneapolis,
Minnesota, for Plaintiffs-Appellants.
Mark Remy Yohalem, Esq. (argued), Glenn D.
Pomerantz, Erin J. Cox, Kenneth M. TrujilloJamison, and Anne K. Conley, Munger, Tolles &
Olson LLP, Los Angeles, California, for DefendantsAppellees.
_________________________________________________
ORDER
The opinion filed on March 16, 2020, slip op. 1855635, and appearing at 952 F.3d 1149, is hereby
amended. An amended opinion is filed concurrently
with this order.
With these amendments, the panel has voted to
deny the petition for panel rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.

4a
The petition for panel rehearing and petition for
rehearing en banc are DENIED. No further petitions
for en banc or panel rehearing shall be permitted.
_________________________________________________
OPINION
McKEOWN, Circuit Judge:
Literary and graphic characters—from James
Bond to the Batmobile—capture our creative
imagination. These characters also may enjoy
copyright protection, subject to certain limitations.
Here
we
consider
whether
certain
anthropomorphized characters representing human
emotions qualify for copyright protection. They do
not. For guidance, we turn to DC Comics v. Towle, our
court’s
most
recent
explanation
of
the
copyrightability of graphically-depicted characters.
DC Comics v. Towle, 802 F.3d 1012 (9th Cir. 2015).
Denise
Daniels
developed
a
line
of
anthropomorphic characters called The Moodsters,
which she pitched to entertainment and toy
companies around the country, including The Walt
Disney Company. Under Towle, “lightly sketched”
characters such as The Moodsters, which lack
“consistent, identifiable character traits and
attributes,” do not enjoy copyright protection. Id. at
1019, 1021. We affirm the district court’s dismissal of
Daniels’s complaint.
BACKGROUND
I. The Moodsters
Daniels is an expert on children’s emotional

5a
intelligence and development. She designed and
promoted initiatives that help children cope with
strong emotions like loss and trauma. The Moodsters
were devised as a commercial application of this
work. Daniels hired a team to produce and develop
her idea under the umbrella of her new company, The
Moodsters Company. The initial product was The
Moodsters Bible (“Bible”), a pitchbook released in
2005. It provided a concise way to convey Daniels’s
idea to media executives and other potential
collaborators, and included a brief description of the
characters, themes, and setting that Daniels
envisioned for her Moodsters universe.
The Moodsters are five characters that are colorcoded anthropomorphic emotions, each representing
a different emotion: pink (love); yellow (happiness);
blue (sadness); red (anger); and green (fear). Daniels
initially named The Moodsters Oolvia, Zip, Sniff,
Roary, and Shake, although these names changed in
each iteration of the characters.
In 2007, Daniels and her team released a 30minute pilot episode for a television series featuring
The Moodsters, titled “The Amoodsment Mixup”
(“pilot”). The pilot was later available on YouTube.
Between 2012 and 2013, Daniels and her team
developed what they call the “second generation” of
Moodsters products: a line of toys and books featuring
The Moodsters that were sold at Target and other
retailers beginning in 2015.
Daniels and The Moodsters Company pitched The
Moodsters to numerous media and entertainment
companies. One recurring target was The Walt

6a
Disney Company and its affiliates, including Pixar.
Daniels alleges that she or a member of her team had
contact with several different Disney employees
between 2005 and 2009.
The claimed contact began in 2005, when a
member of The Moodsters Company shared
information about The Moodsters with an employee
of Playhouse Disney. Daniels alleges that in 2008 she
was put in touch with Thomas Staggs, the Chief
Financial Officer of the Walt Disney Company, and
that Staggs later informed her that he would share
materials about The Moodsters with Roy E. Disney,
the son of a Disney founder, and Rich Ross, the
President of Disney Channels Worldwide. Finally,
Daniels alleges that she spoke by phone with Pete
Docter, a director and screenwriter, and they
discussed The Moodsters, although no year or context
for this conversation is alleged in the Complaint.
II. Disney’s Inside Out
Disney began development of its movie Inside Out
in 2010. The movie was released in 2015, and centers
on five anthropomorphized emotions that live inside
the mind of an 11-year-old girl named Riley. Those
emotions are joy, fear, sadness, disgust, and anger.
Docter, who directed and co- wrote the screenplay,
stated that his inspiration for the film was the
manner with which his 11-year-old daughter dealt
with new emotions as she matured.
III.District Court Proceedings
Daniels filed suit against Disney in 2017 for breach
of an implied-in-fact contract, arising from Disney’s

7a
failure to compensate Daniels for the allegedly
disclosed material used to develop Inside Out. Daniels
then filed an amended complaint, joining The
Moodsters Company as a co-plaintiff and alleging
copyright infringement of both the individual
Moodsters characters and the ensemble of characters
as a whole.
Disney filed a motion to dismiss, asserting that
Daniels failed to meet the legal standard for copyright
in a character, and that the copyright “publication” of
the Bible and pilot doomed Daniels’s implied-in-fact
contract claim. The district court granted Disney’s
motion to dismiss, and granted Daniels leave to file
an amended complaint on the copyright claims.
Disney filed a motion to dismiss the Amended
Complaint, which the district court granted on the
ground that The Moodsters are not protectable by
copyright.
ANALYSIS
I. Copyright Protection for The Moodsters
Although characters are not an enumerated
copyrightable subject matter under the Copyright Act,
see 17 U.S.C. § 102(a), there is a long history of
extending copyright protection to graphicallydepicted characters. See, e.g., Olson v. Nat’l Broad.
Co., 855 F.2d 1446, 1452 (9th Cir. 1988); Walt Disney
Prods. v. Air Pirates, 581 F.2d 751, 755 (9th Cir.
1978). However, “[n]ot every comic book, television, or
motion picture character is entitled to copyright
protection.” Towle, 802 F.3d at 1019. A character is
entitled to copyright protection if (1) the character
has “physical as well as conceptual qualities,” (2) the

8a
character is “sufficiently delineated to be
recognizable as the same character whenever it
appears” and “display[s] consistent, identifiable
character traits and attributes,” and (3) the character
is “especially distinctive” and “contain[s] some unique
elements of expression.” Id. at 1021 (internal
citations and quotation marks removed).

A. Application of the Towle Test to The
Moodsters

Disney does not dispute that the individual
Moodster characters meet the first prong of the Towle
test: each has physical as well as conceptual qualities.
Because they have physical qualities, The Moodsters
are not mere literary characters.
The second prong presents an insurmountable
hurdle for Daniels. Towle requires that a character
must be “sufficiently delineated to be recognizable as
the same character whenever it appears.” Id.
Although a character that has appeared in multiple
productions or iterations “need not have a consistent
appearance,” it “must display consistent, identifiable
character traits and attributes” such that it is
recognizable whenever it appears. Id.
Consistently recognizable characters like Godzilla
or James Bond, whose physical characteristics may
change over various iterations, but who maintain
consistent and identifiable character traits and
attributes
across
various
productions
and
adaptations, meet the test. See Tono Co. v. William
Morrow & Co., 33 F. Supp. 2d 1206, 1215 (C.D. Cal.
1998) (finding that Godzilla is consistently a “prehistoric, fire-breathing, gigantic dinosaur alive and

9a
well in the modern world”), Metro-Goldwyn-Mayer,
Inc. v. Am. Honda Motor Corp., 900 F. Supp. 1287,
1296 (C.D. Cal. 1995) (noting that James Bond has
consistent traits such as “his cold-bloodedness; his
overt sexuality; his love of martinis ‘shaken, not
stirred;’ his marksmanship; his ‘license to kill’ and use
of guns; his physical strength; his sophistication”). By
contrast, a character that lacks a core set of
consistent and identifiable character traits and
attributes is not protectable, because that character
is not immediately recognizable as the same
character whenever it appears. See, e.g., Olson, 855
F.2d at 1452–53 (holding that television characters
from “Cargo” are too “lightly sketched” to be
independently protectable by copyright).
In addressing The Moodsters, we first distinguish
between the idea for a character and the depiction of
that character. The notion of using a color to
represent a mood or emotion is an idea that does not
fall within the protection of copyright. See 17 U.S.C.
§ 102(b) (“In no case does copyright protection for an
original work of authorship extend to any idea . . .
regardless of the form in which it is described,
explained, illustrated, or embodied in such work.”);
see also Feist Publ’ns, Inc. v. Rural Tel. Serv. Co., 499
U.S. 340, 344–45 (1991) (internal quotation marks
and citation removed) (“The most fundamental axiom
of copyright law is that no author may copyright his
ideas ….”); Frybarger v. Int’l Bus. Mach. Corp., 812
F.2d 525, 529 (9th Cir. 1987) (“[I]deas themselves are
not protected by copyright and cannot, therefore, be
infringed.”). So it is no surprise that the idea of color
psychology is involved in everything from decorating
books to marketing and color therapy. Color and
emotion are also frequent themes in children’s books,

10a
such as Dr. Seuss’s classic, My Many Colored Days,
and Anna Llenas’s The Color Monster: A Story of
Emotions.
Notably, colors themselves are not generally
copyrightable. Boisson v. Banian, 273 F.3d 262, 271
(2d Cir. 2001) (“Color by itself is not subject to
copyright protection.”); see also 38 C.F.R. § 202.1(a)
(“[M]ere variations of . . . coloring” are not
copyrightable). Nor is the “idea” of an emotion
copyrightable. See Feist, 499 U.S. at 350. Taken
together, these principles mean that Daniels cannot
copyright the idea of colors or emotions, nor can she
copyright the idea of using colors to represent
emotions where these ideas are embodied in a
character without sufficient delineation and
distinctiveness.
In analyzing whether The Moodster characters
are “sufficiently delineated,” we carefully examine
the graphic depiction of the characters and not the
ideas underlying them. We look first to the physical
appearance of The Moodsters. Unlike, for example,
the Batmobile, which “maintained distinct physical
and conceptual qualities since its first appearance in
the comic books,” the physical appearance of The
Moodsters changed significantly over time. Towle,
802 F.3d at 1021. In the 2005 Bible and 2007
television pilot, the five Moodsters have an insect-like
appearance, with skinny bodies, long ears, and tall
antennas that act as “emotional barometers” to form
a distinctive shape and glow when an emotion is
strongly felt. By the second generation of toys, The
Moodsters look like small, loveable bears. They are
round and cuddly, have small ears, and each dons a
detective’s hat and small cape.

11a
Mindful that physical appearance alone is not
decisive, we also consider whether The Moodsters
have maintained consistent character traits and
attributes. Across the various iterations The
Moodsters have consistently represented five human
emotions, and those emotions have not changed. But
other than the idea of color and emotions, there are
few other identifiable character traits and attributes
that are consistent over the various iterations. In the
2005 Bible, each character is described in a few short
paragraphs. For example, the Zip character is
described as having “an infectious laugh and wakes
up each morning with a smile on his face and a
friendly attitude.” By the 2007 pilot, these
characteristics are not mentioned and are not evident
from the depiction of Zip. The other four Moodsters
similarly lack consistent characteristics and
attributes in the 2005 Bible and 2007 pilot. “Lightly
sketched” characters of this kind, without identifiable
character traits, are not copyrightable under the
second prong of Towle. See id. at 1019 (citing Olson,
855 F.3d at 1452–53).
Perhaps the most readily identifiable attribute of
The Moodsters is their relationship to emotions. The
2005 Bible explains that each character relates to
emotions in its own way when something new
happens—the “anger” Moodster might become angry,
whereas the “sad” Moodster might become sad. The
Moodsters behave in a similar fashion in the 2007
pilot, where each character is especially prone to a
particular emotion such as anger or sadness. But by
2015, the five Moodsters are “mood detectives,” and
help a young boy uncover how he feels about
situations in his life.

12a
Finally, in every iteration the five Moodsters each
have a completely different name. For example, the
red/anger Moodster was originally named Roary in
the 2005 Bible, then Rizzi in the 2007 pilot, and as of
2015 was named Razzy in Moodsters toys and the
Meet the Moodsters storybook. The other four
characters have gone through similar name changes
over the three iterations. While a change of name is
not dispositive in our analysis, these changes across
each iteration further illustrate that Daniels never
settled on a well-delineated set of characters beyond
their representation of five human emotions.
The Batmobile in Towle again provides a useful
contrast to this case. There, we recognized that from
the time of the 1966 television series to the 1989
motion picture, the Batmobile had numerous
identifiable and consistent character traits and
attributes. It was always a “crime- fighting car” that
allowed Batman to defeat his enemies. Towle, 802
F.3d at 1021. It consistently had jet-engines and far
more power than an ordinary car, the most up-to-date
weaponry, and the ability to navigate through
landscapes impassible for an ordinary vehicle. Id. at
1021–22. Beyond the emotion it represents, each
Moodster lacks comparable identifiable and
consistent character traits and attributes across
iterations, thus failing the second prong of the Towle
test.
Finally, even giving Daniels the benefit of the
doubt on Towle’s second prong, we conclude that The
Moodsters fail the third prong—they are not
“especially distinctive” and do not “contain some
unique elements of expression.” Id. (internal
quotation marks and citations removed). Daniels

13a
identifies The Moodsters as unique in that they each
represent a single emotion. But this facet is not
sufficient to render them “especially distinctive,”
particularly given their otherwise generic attributes
and character traits. In contrast, the Batmobile in
Towle had a “unique and highly recognizable name,”
unlike each Moodster, which had three entirely
different names. Id. at 1022. Developing a character
as an anthropomorphized version of a specific
emotion is not sufficient, in itself, to establish a
copyrightable character. See Rice v. Fox Broad. Co.,
330 F.3d 1170, 1175 (9th Cir. 2003) (declining to
extend copyright protection to “the magician …
dressed in standard magician garb—black tuxedo
with tails, a while tuxedo shirt, a black bow tie, and a
black cape with red lining” whose role is “limited to
performing and revealing magic tricks”). Taken
together, The Moodsters are not “especially
distinctive,” and do not meet the third prong of the
Towle test.

B. The Story Being Told Test
Since the 1950s, we have also extended copyright
protection to characters—both literary and graphic—
that constitute “the story being told” in a work.
Warner Bros. Pictures v. Columbia Broad. Sys., 216
F.2d 945, 950 (9th Cir. 1954); see also Rice, 330 F.3d
at 1175–76; Halicki Films, LLC v. Sanderson Sales &
Mktg., 547 F.3d 1213, 1224 (9th Cir. 2008). A
character is not copyrightable under this test where
“the character is only the chessman in the game of
telling the story.” Warner Bros. Pictures, 216 F.2d at
950. This is a high bar, since few characters so
dominate the story such that it becomes essentially a
character study.

14a
Warner Brothers and Towle are two different tests
for character copyrightability. See Rice, 330 F.3d at
1175 (“characters that are ‘especially distinctive’ or
the ‘story being told’ receive protection apart from the
copyrighted work” (emphasis added)). Thus, we do not
embrace the district court’s view that Towle
represents the exclusive test for copyrightability.
The Warner Brothers test is therefore available,
but it affords no protection to The Moodsters. Neither
the Bible nor the pilot episode exhibits any prolonged
engagement with character development or a
character study of The Moodsters. Although the
characters are introduced in the Bible, along with
short descriptions, these pithy descriptions do not
constitute the story being told. The pilot contains
even less character development—rather, each of The
Moodsters serves primarily as a means by which
particular emotions are introduced and explored. The
Moodsters are mere chessmen in the game of telling
the story.
Daniels’s final argument is that even if the
individual Moodsters are not protectable under the
Towle or “story being told” regimes, the ensemble of
five characters together meets one or both of those
tests. Daniels’s ensemble claim does not change the
distinctiveness or degree of delineation of the
characters, and so The Moodsters as an ensemble are
no more copyrightable than the individual characters.
The district court did not err in dismissing
Daniels’s claims for copyright infringement.

15a
II. Implied-in-Fact Contract
Daniels also puts forth a claim for breach of an
implied- in-fact contract. Under California law, a
plaintiff can recover compensation for an idea
conveyed to a counter- party where no explicit
contract exists only where (1) “before or after
disclosure he has obtained an express promise to
pay,” or (2) “the circumstances preceding and
attending disclosure, together with the conduct of the
offeree acting with knowledge of the circumstances,
show a promise of the type usually referred to as
‘implied’ or ‘implied-in- fact.’” Desny v. Wilder, 46 Cal.
2d 715, 738 (1956). The Ninth Circuit has developed
a multi-part test to evaluate Desny claims, asking
whether (1) the plaintiff prepared or created the work
in question, (2) the work was disclosed to the
defendant for sale, and (3) the disclosure was made
“under circumstances from which it could be
concluded that the offeree voluntarily accepted the
disclosure knowing the conditions on which it was
tendered and the reasonable value of the work.”
Grosso v. Miramax Film Corp., 383 F.3d 965, 967 (9th
Cir. 2004).
Daniels’s implied-in-fact contract claim is based
on the disclosure of information about The Moodsters
to various employees of Disney and its affiliates
between 2005 and 2009. These discussions were a
part of Daniels’s effort to find a partner with whom
she could develop and grow the Moodsters brand and
commercial opportunities.
There is no dispute that Daniels created the
characters in question, and we accept as true that the
alleged conversations took place. But the existence of

16a
a conversation in which an idea is disclosed is, by
itself, an insufficient basis to support an implied-infact contract.
Daniels alleges that “she was aware and relied on
customs and practices in the entertainment industry
when she approached Disney˖Pixar about a
partnership,” and that “Disney˖Pixar accepted the
disclosure of the ideas in The Moodsters with an
expectation that it would have to compensate Daniels
and The Moodsters Company if Disney˖Pixar used
this idea in any television, motion picture,
merchandise, or otherwise.”
But we are told no more. Daniels offers only bare
allegations, stripped of relevant details that might
support her claim for an implied-in-fact contract. No
dates are alleged, and no details are provided. There
is no basis to conclude that Disney either provided an
express offer to pay for the disclosure of Daniels’s idea
or that the disclosure was made “under circumstances
from which it could be concluded that [Disney]
voluntarily accepted the disclosure knowing the
conditions on which it was tendered and the
reasonable value of the work.” Id.
To survive a motion to dismiss, Daniels is required
under California law to do more than plead a boilerplate allegation, devoid of any relevant details. The
district court did not err in dismissing Daniels’s claim
for an implied-in- fact contract.
CONCLUSION
There is no dispute that the 2005 Moodsters Bible
and the 2007 pilot television episode are protected by

17a
copyright. But Daniels cannot succeed on her
copyright claim for The Moodsters characters, which
are “lightly sketched” and neither sufficiently
delineated nor representative of the story being told.
Daniels also fails to allege sufficient facts to maintain
an implied-in-fact contract claim against Disney
under California law.
AFFIRMED.

18a
APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DENISE DANIELS; THE
MOODSTERS COMPANY,
PlaintiffsAppellants,
v.

No. 18-55635
D.C. No.
2:17-cv-04527PSG-SK

THE WALT DISNEY
COMPANY; DISNEY
ENTERPRISES, INC.; DISNEY
CONSUMER PRODUCTS AND
INTERACTIVE MEDIA INC.;
DISNEY INTERACTIVE
STUDIOS, INC.; DISNEY
SHOPPING, INC.; PIXAR,

OPINION

DefendantsAppellees.
Appeal from the United States District Court
for the Central District of California
Philip S. Gutierrez, District Judge, Presiding
Argued and Submitted November 6, 2019
Pasadena, California
Filed March 16, 2020

19a
Before: Jerome Farris, M. Margaret McKeown, and
Barrington D. Parker, Jr., ∗ Circuit Judges.
Opinion by Judge McKeown
_________________________________________________
SUMMARY **
_________________________________________________
Copyright
The panel affirmed the district court’s dismissal of
an action alleging copyright infringement by the
Disney movie Inside Out of plaintiffs’ characters
called The Moodsters.
Affirming the denial of plaintiff’s claim under the
Copyright Act, the panel held that The Moodsters,
lightly sketched anthropomorphized characters
representing human emotions, did not qualify for
copyright protection because they lacked consistent,
identifiable character traits and attributes and were
not especially distinctive. The Moodsters also did not
qualify for copyright protection under the alternative
“story being told” test.
The panel also affirmed the district court’s denial
of plaintiff’s claim for breach of an implied-in-fact
contract under California law, based on her
The Honorable Barrington D. Parker, Jr., United States
Circuit Judge for the U.S. Court of Appeals for the Second
Circuit, sitting by designation.
∗

** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

20a
disclosure of information about The Moodsters to
various employees of Disney and its affiliates.
_________________________________________________
COUNSEL
Patrick Arenz, Esq.(argued), Ronald J. Schutz and
Brenda L. Joly, Robins Kaplan LLP, Minneapolis,
Minnesota, for Plaintiffs-Appellants.
Mark Remy Yohalem, Esq. (argued), Glenn D.
Pomerantz, Erin J. Cox, Kenneth M. TrujilloJamison, and Anne K. Conley, Munger, Tolles &
Olson LLP, Los Angeles, California, for DefendantsAppellees.
_________________________________________________
OPINION
McKEOWN, Circuit Judge:
Literary and graphic characters—from James
Bond to the Batmobile—capture our creative
imagination. These characters also may enjoy
copyright protection, subject to certain limitations.
Here
we
consider
whether
certain
anthropomorphized characters representing human
emotions qualify for copyright protection. They do
not. For guidance, we turn to DC Comics v. Towle, our
court’s
most
recent
explanation
of
the
copyrightability of graphically-depicted characters.
DC Comics v. Towle, 802 F.3d 1012 (9th Cir. 2015).
Denise
Daniels
developed
a
line
of
anthropomorphic characters called The Moodsters,
which she pitched to entertainment and toy
companies around the country, including The Walt

21a
Disney Company. Under Towle, “lightly sketched”
characters such as The Moodsters, which lack
“consistent, identifiable character traits and
attributes,” do not enjoy copyright protection. Id. at
1019, 1021. We affirm the district court’s dismissal of
Daniels’s complaint.
BACKGROUND
I. The Moodsters
Daniels is an expert on children’s emotional
intelligence and development. She designed and
promoted initiatives that help children cope with
strong emotions like loss and trauma. The Moodsters
were devised as a commercial application of this
work. Daniels hired a team to produce and develop
her idea under the umbrella of her new company, The
Moodsters Company. The initial product was The
Moodsters Bible (“Bible”), a pitchbook released in
2005. It provided a concise way to convey Daniels’s
idea to media executives and other potential
collaborators, and included a brief description of the
characters, themes, and setting that Daniels
envisioned for her Moodsters universe.
The Moodsters are five characters that are colorcoded anthropomorphic emotions, each representing
a different emotion: pink (love); yellow (happiness);
blue (sadness); red (anger); and green (fear). Daniels
initially named The Moodsters Oolvia, Zip, Sniff,
Roary, and Shake, although these names changed in
each iteration of the characters.
In 2007, Daniels and her team released a 30minute pilot episode for a television series featuring

22a
The Moodsters, titled “The Amoodsment Mixup”
(“pilot”). The pilot was later available on YouTube.
Between 2012 and 2013, Daniels and her team
developed what they call the “second generation” of
Moodsters products: a line of toys and books featuring
The Moodsters that were sold at Target and other
retailers beginning in 2015.
Daniels and The Moodsters Company pitched The
Moodsters to numerous media and entertainment
companies. One recurring target was The Walt
Disney Company and its affiliates, including Pixar.
Daniels alleges that she or a member of her team had
contact with several different Disney employees
between 2005 and 2009.
The claimed contact began in 2005, when a
member of The Moodsters Company shared
information about The Moodsters with an employee
of Playhouse Disney. Daniels alleges that in 2008 she
was put in touch with Thomas Staggs, the Chief
Financial Officer of the Walt Disney Company, and
that Staggs later informed her that he would share
materials about The Moodsters with Roy E. Disney,
the son of a Disney founder, and Rich Ross, the
President of Disney Channels Worldwide. Finally,
Daniels alleges that she spoke by phone with Pete
Docter, a director and screenwriter, and they
discussed The Moodsters, although no year or context
for this conversation is alleged in the Complaint.
II. Disney’s Inside Out
Disney began development of its movie Inside Out
in 2010. The movie was released in 2015, and centers

23a
on five anthropomorphized emotions that live inside
the mind of an 11-year-old girl named Riley. Those
emotions are joy, fear, sadness, disgust, and anger.
Docter, who directed and co-wrote the screenplay,
stated that his inspiration for the film was the
manner with which his 11-year-old daughter dealt
with new emotions as she matured.
III.District Court Proceedings
Daniels filed suit against Disney in 2017 for
breach of an implied-in-fact contract, arising from
Disney’s failure to compensate Daniels for the
allegedly disclosed material used to develop Inside
Out. Daniels then filed an amended complaint,
joining The Moodsters Company as a co-plaintiff and
alleging copyright infringement of both the individual
Moodsters characters and the ensemble of characters
as a whole.
Disney filed a motion to dismiss, asserting that
Daniels failed to meet the legal standard for copyright
in a character, and that the copyright “publication” of
the Bible and pilot doomed Daniels’s implied-in-fact
contract claim. The district court granted Disney’s
motion to dismiss, and granted Daniels leave to file
an amended complaint on the copyright claims.
Disney filed a motion to dismiss the Amended
Complaint, which the district court granted on the
ground that The Moodsters are not protectable by
copyright.

24a
ANALYSIS
I. Copyright Protection for The Moodsters
Although characters are not an enumerated
copyrightable subject matter under the Copyright
Act, see 17 U.S.C. § 102(a), there is a long history of
extending copyright protection to graphicallydepicted characters. See, e.g., Olson v. Nat’l Broad.
Co., 855 F.2d 1446, 1452 (9th Cir. 1988); Walt Disney
Prods. v. Air Pirates, 581 F.2d 751, 755 (9th Cir.
1978). However, “[n]ot every comic book, television, or
motion picture character is entitled to copyright
protection.” Towle, 802 F.3d at 1019. A character is
entitled to copyright protection if (1) the character
has “physical as well as conceptual qualities,” (2) the
character is “sufficiently delineated to be
recognizable as the same character whenever it
appears” and “display[s] consistent, identifiable
character traits and attributes,” and (3) the character
is “especially distinctive” and “contain[s] some unique
elements of expression.” Id. at 1021 (internal
citations and quotation marks removed).

A. Application of the Towle Test to The
Moodsters

Disney does not dispute that the individual
Moodster characters meet the first prong of the Towle
test: each has physical as well as conceptual qualities.
Because they have physical qualities, The Moodsters
are not mere literary characters.
The second prong presents an insurmountable
hurdle for Daniels. Towle requires that a character
must be “sufficiently delineated to be recognizable as

25a
the same character whenever it appears.” Id.
Although a character that has appeared in multiple
productions or iterations “need not have a consistent
appearance,” it “must display consistent, identifiable
character traits and attributes” such that it is
recognizable whenever it appears. Id.
Consistently recognizable characters like Godzilla
or James Bond, whose physical characteristics may
change over various iterations, but who maintain
consistent and identifiable character traits and
attributes
across
various
productions
and
adaptations, meet the test. See Tono Co. v. William
Morrow & Co., 33 F. Supp. 2d 1206, 1215 (C.D. Cal.
1998) (finding that Godzilla is consistently a “prehistoric, fire-breathing, gigantic dinosaur alive and
well in the modern world”), Metro-Goldwyn-Mayer,
Inc. v. Am. Honda Motor Corp., 900 F. Supp. 1287,
1296 (C.D. Cal. 1995) (noting that James Bond has
consistent traits such as “his cold-bloodedness; his
overt sexuality; his love of martinis ‘shaken, not
stirred;’ his marksmanship; his ‘license to kill’ and
use of guns; his physical strength; his
sophistication”). By contrast, a character that lacks a
core set of consistent and identifiable character traits
and attributes is not protectable, because that
character is not immediately recognizable as the
same character whenever it appears. See, e.g., Olson,
855 F.2d at 1452–53 (holding that television
characters from “Cargo” are too “lightly sketched” to
be independently protectable by copyright).
In addressing The Moodsters, we first distinguish
between the idea for a character and the depiction of
that character. The notion of using a color to
represent a mood or emotion is an idea that does not

26a
fall within the protection of copyright. See 17 U.S.C.
§ 102(b) (“In no case does copyright protection for an
original work of authorship extend to any idea . . .
regardless of the form in which it is described,
explained, illustrated, or embodied in such work.”);
see also Feist Publ’ns, Inc. v. Rural Tel. Serv. Co., 499
U.S. 340, 344–45 (1991) (internal quotation marks
and citation removed) (“The most fundamental axiom
of copyright law is that no author may copyright his
ideas ….”); Frybarger v. Int’l Bus. Mach. Corp., 812
F.2d 525, 529 (9th Cir. 1987) (“[I]deas themselves are
not protected by copyright and cannot, therefore, be
infringed.”). So it is no surprise that the idea of color
psychology is involved in everything from decorating
books to marketing and color therapy. Color and
emotion are also frequent themes in children’s books,
such as Dr. Seuss’s classic, My Many Colored Days,
and Anna Llenas’s The Color Monster: A Story of
Emotions.
Notably, colors themselves are not generally
copyrightable. Boisson v. Banian, 273 F.3d 262, 271
(2d Cir. 2001) (“Color by itself is not subject to
copyright protection.”); see also 38 C.F.R. § 202.1(a)
(“[M]ere variations of . . . coloring” are not
copyrightable). Nor is the “idea” of an emotion
copyrightable. See Feist, 499 U.S. at 350. Taken
together, these principles mean that Daniels cannot
copyright the idea of colors or emotions, nor can she
copyright the idea of using colors to represent
emotions where these ideas are embodied in a
character without sufficient delineation and
distinctiveness.
In analyzing whether The Moodster characters
are “sufficiently delineated,” we carefully examine

27a
the graphic depiction of the characters and not the
ideas underlying them. We look first to the physical
appearance of The Moodsters. Unlike, for example,
the Batmobile, which “maintained distinct physical
and conceptual qualities since its first appearance in
the comic books,” the physical appearance of The
Moodsters changed significantly over time. Towle,
802 F.3d at 1021. In the 2005 Bible and 2007
television pilot, the five Moodsters have an insect-like
appearance, with skinny bodies, long ears, and tall
antennas that act as “emotional barometers” to form
a distinctive shape and glow when an emotion is
strongly felt. By the second generation of toys, The
Moodsters look like small, loveable bears. 1 They are
round and cuddly, have small ears, and each dons a
detective’s hat and small cape. This physical
transformation over time was not insubstantial, and
it would be difficult to conclude that the 2005
Moodsters are the same characters as those sold at
Target in 2015.
Mindful that physical appearance alone is not
decisive, we also consider whether The Moodsters
have maintained consistent character traits and
attributes. Across the various iterations The
Moodsters have consistently represented five human
emotions, and those emotions have not changed. But
other than the idea of color and emotions, there are
few other identifiable character traits and attributes
1 Although the second generation of toys was developed
between 2012 and 2013—after Disney began to develop Inside
Out in 2010—that iteration remains relevant because the Towle
test asks whether a character has displayed “consistent,
identifiable character traits and attributes” whenever it appears.
802 F.3d at 1021.

28a
that are consistent over the various iterations. In the
2005 Bible, each character is described in a few short
paragraphs. For example, the Zip character is
described as having “an infectious laugh and wakes
up each morning with a smile on his face and a
friendly attitude.” By the 2007 pilot and the second
generation of toys, these characteristics are not
mentioned and are not evident from the depiction of
Zip. “Lightly sketched” characters of this kind,
without identifiable character traits, are not
copyrightable under the second prong of Towle. See
id. at 1019 (citing Olson, 855 F.3d at 1452–53).
Perhaps the most readily identifiable attribute of
The Moodsters is their relationship to emotions. The
2005 Bible explains that each character relates to
emotions in its own way when something new
happens—the “anger” Moodster might become angry,
whereas the “sad” Moodster might become sad. The
Moodsters behave in a similar fashion in the 2007
pilot, where each character is especially prone to a
particular emotion such as anger or sadness. But by
2015, the five Moodsters are “mood detectives,” and
help a young boy uncover how he feels about
situations in his life.
Finally, in every iteration the five Moodsters each
have a completely different name. For example, the
red/anger Moodster was originally named Roary in
the 2005 Bible, then Rizzi in the 2007 pilot, and as of
2015 was named Razzy in Moodsters toys and the
Meet the Moodsters storybook.
The other four characters have gone through
similar name changes over the three iterations. While
a change of name is not dispositive in our analysis,

29a
these changes across the three iterations further
illustrate that Daniels never settled on a welldelineated set of characters beyond their
representation of five human emotions.
The Batmobile in Towle again provides a useful
contrast to this case. There, we recognized that from
the time of the 1966 television series to the 1989
motion picture, the Batmobile had numerous
identifiable and consistent character traits and
attributes. It was always a “crime-fighting car” that
allowed Batman to defeat his enemies. Towle, 802
F.3d at 1021. It consistently had jet-engines and far
more power than an ordinary car, the most up-to-date
weaponry, and the ability to navigate through
landscapes impassible for an ordinary vehicle. Id. at
1021–22. Beyond the emotion it represents, each
Moodster lacks comparable identifiable and
consistent character traits and attributes across
iterations, thus failing the second prong of the Towle
test.
Finally, even giving Daniels the benefit of the
doubt on Towle’s second prong, we conclude that The
Moodsters fail the third prong—they are not
“especially distinctive” and do not “contain some
unique elements of expression.” Id. (internal
quotation marks and citations removed). Daniels
identifies The Moodsters as unique in that they each
represent a single emotion. But this facet is not
sufficient to render them “especially distinctive,”
particularly given their otherwise generic attributes
and character traits. In contrast, the Batmobile in
Towle had a “unique and highly recognizable name,”
unlike each Moodster, which had three entirely
different names. Id. at 1022. Developing a character

30a
as an anthropomorphized version of a specific
emotion is not sufficient, in itself, to establish a
copyrightable character. See Rice v. Fox Broad. Co.,
330 F.3d 1170, 1175 (9th Cir. 2003) (declining to
extend copyright protection to “the magician …
dressed in standard magician garb—black tuxedo
with tails, a while tuxedo shirt, a black bow tie, and a
black cape with red lining” whose role is “limited to
performing and revealing magic tricks”). Taken
together, The Moodsters are not “especially
distinctive,” and do not meet the third prong of the
Towle test.

B. The Story Being Told Test
Since the 1950s, we have also extended copyright
protection to characters—both literary and graphic—
that constitute “the story being told” in a work.
Warner Bros. Pictures v. Columbia Broad. Sys., 216
F.2d 945, 950 (9th Cir. 1954); see also Rice, 330 F.3d
at 1175–76; Halicki Films, LLC v. Sanderson Sales &
Mktg., 547 F.3d 1213, 1224 (9th Cir. 2008). A
character is not copyrightable under this test where
“the character is only the chessman in the game of
telling the story.” Warner Bros. Pictures, 216 F.2d at
950. This is a high bar, since few characters so
dominate the story such that it becomes essentially a
character study.
Warner Brothers and Towle are two different tests
for character copyrightability. See Rice, 330 F.3d at
1175 (“characters that are ‘especially distinctive’ or
the ‘story being told’ receive protection apart from the
copyrighted work” (emphasis added)). Thus, we do not
embrace the district court’s view that Towle
represents the exclusive test for copyrightability.

31a
The Warner Brothers test is therefore available,
but it affords no protection to The Moodsters. Neither
the Bible nor the pilot episode exhibits any prolonged
engagement with character development or a
character study of The Moodsters. Although the
characters are introduced in the Bible, along with
short descriptions, these pithy descriptions do not
constitute the story being told. The pilot contains
even less character development—rather, each of The
Moodsters serves primarily as a means by which
particular emotions are introduced and explored. The
Moodsters are mere chessmen in the game of telling
the story.
Daniels’s final argument is that even if the
individual Moodsters are not protectable under the
Towle or “story being told” regimes, the ensemble of
five characters together meets one or both of those
tests. Daniels’s ensemble claim does not change the
distinctiveness or degree of delineation of the
characters, and so The Moodsters as an ensemble are
no more copyrightable than the individual characters.
The district court did not err in dismissing
Daniels’s claims for copyright infringement.
II. Implied-in-Fact Contract
Daniels also puts forth a claim for breach of an
implied- in-fact contract. Under California law, a
plaintiff can recover compensation for an idea
conveyed to a counter- party where no explicit
contract exists only where (1) “before or after
disclosure he has obtained an express promise to
pay,” or (2) “the circumstances preceding and
attending disclosure, together with the conduct of the

32a
offeree acting with knowledge of the circumstances,
show a promise of the type usually referred to as
‘implied’ or ‘implied-in- fact.’” Desny v. Wilder, 46 Cal.
2d 715, 738 (1956). The Ninth Circuit has developed
a multi-part test to evaluate Desny claims, asking
whether (1) the plaintiff prepared or created the work
in question, (2) the work was disclosed to the
defendant for sale, and (3) the disclosure was made
“under circumstances from which it could be
concluded that the offeree voluntarily accepted the
disclosure knowing the conditions on which it was
tendered and the reasonable value of the work.”
Grosso v. Miramax Film Corp., 383 F.3d 965, 967 (9th
Cir. 2004).
Daniels’s implied-in-fact contract claim is based
on the disclosure of information about The Moodsters
to various employees of Disney and its affiliates
between 2005 and 2009. These discussions were a
part of Daniels’s effort to find a partner with whom
she could develop and grow the Moodsters brand and
commercial opportunities.
There is no dispute that Daniels created the
characters in question, and we accept as true that the
alleged conversations took place. But the existence of
a conversation in which an idea is disclosed is, by
itself, an insufficient basis to support an implied-infact contract.
Daniels alleges that “she was aware and relied on
customs and practices in the entertainment industry
when she approached Disney.Pixar about a
partnership,” and that "Disney.Pixar accepted the
disclosure of the ideas in The Moodsters with an
expectation that it would have to compensate Daniels

33a
and The Moodsters Company if Disney.Pixar used
this idea in any television, motion picture,
merchandise, or otherwise.”
But we are told no more. Daniels offers only bare
allegations, stripped of relevant details that might
support her claim for an implied-in-fact contract. No
dates are alleged, and no details are provided. There
is no basis to conclude that Disney either provided an
express offer to pay for the disclosure of Daniels’s idea
or that the disclosure was made “under circumstances
from which it could be concluded that [Disney]
voluntarily accepted the disclosure knowing the
conditions on which it was tendered and the
reasonable value of the work.” Id.
To survive a motion to dismiss, Daniels is required
under California law to do more than plead a boilerplate allegation, devoid of any relevant details. The
district court did not err in dismissing Daniels’s claim
for an implied-in- fact contract.
CONCLUSION
There is no dispute that the 2005 Moodsters Bible
and the 2007 pilot television episode are protected by
copyright. But Daniels cannot succeed on her
copyright claim for The Moodsters characters, which
are “lightly sketched” and neither sufficiently
delineated nor representative of the story being told.
Daniels also fails to allege sufficient facts to maintain
an implied-in-fact contract claim against Disney
under California law.
AFFIRMED.

34a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. 17-CV-4527 PSG (SKx) Date May 9, 2018
Title Denise Daniels and The Moodsters Company v.
The Walt Disney Company, et al
Present: The Honorable Philip S. Gutierrez, United
States District Judge
Wendy Hernandez
Deputy Clerk
Attorneys Present for
Plaintiff(s):
Not Present

Not Reported
Court Reporter
Attorneys Present for
Defendant(s):
Not Present

Proceedings (In Chambers):
The Court
GRANTS Defendants’ Motion to Dismiss
Before the Court is Defendants Walt Disney
Company, Disney Enterprises, Inc., Disney Consumer
Products and Interactive Media, Inc., Disney
Interactive Studios, Inc., Disney Shopping, Inc., and
Pixar’s (“Defendants” or “Disney”) motion to dismiss
Plaintiffs Denise Daniels and The Moodsters
Company’s (“Plaintiffs”) second amended complaint.
See Dkt. # 55 (“Mot.”). Plaintiffs timely opposed, see
Dkt. # 59 (“Opp.”) and Defendants replied, see Dkt.
# 62 (“Reply”). The Court finds the matter appropriate

35a
for decision without oral argument. See Fed. R. Civ. P.
78; L.R. 7-15. After considering the moving papers,
the Court GRANTS Defendants’ motion.
I.

Background

Plaintiff Denise Daniels is a nationally recognized
child development expert with over 40 years of
experience working in the field of children’s social and
emotional development. See Dkt. # 51, Second
Amended Complaint (“SAC”) ¶¶ 26-35. She cofounded the national non- profit National Childhood
Grief Institution and she has been called upon to help
children cope with grief and loss, after such events as
Desert Storm, Hurricane Katrina, Columbine, and
September 11. Id. ¶ 28. She has appeared on national
television and has published nine children’s self-help
books relating to emotional wellbeing. Id. ¶¶ 31, 35.
Daniels developed The Moodsters, a cartoon world
populated by characters that embody individual
emotions, to help children understand and regulate
their emotions. Id. ¶ 36. Each Moodster is color-coded
and anthropomorphic, and each represents a single
emotion: happiness (yellow), sadness (blue), anger
(red), fear (green), and love (pink). Id. ¶ 53. Plaintiffs
recruited top industry talent and emotional
intelligence experts to develop and produce The
Moodsters. Id. ¶¶ 40-46. In November 2005, Plaintiffs
published a “bible” for The Moodsters, a contemplated
“animated TV show for preschoolers.” Id. ¶ 48. In
2007, Plaintiffs created the pilot episode for The
Moodsters. Id. ¶ 49.

36a
Between 2006 and 2009, Plaintiffs allege they
pitched The Moodsters to Disney every year; many
high-ranking Disney executives received the pitch
materials, allegedly passing them around to other
division heads. Id. ¶¶ 67-69. Ultimately, Plaintiffs
allege that a conversation about The Moodsters
occurred between Daniels and Pete Docter,
subsequently director of Inside Out. Id. ¶ 71. In 2010,
Disney Pixar began development on Inside Out, a
feature film about the anthropomorphized emotions
that live inside the head of an 11-year-old girl. The
film features five color-coded emotions as characters—
joy (yellow), sadness (blue), anger (red), fear (purple),
and disgust (green). Id. ¶¶ 86-90. Inside Out grossed
more than $350,000,000 domestically and over
$850,000,000 worldwide. Id. ¶ 93.
Plaintiff Daniels filed suit on June 19, 2017,
alleging breach of implied-in-fact contract arising
from Plaintiffs’ disclosure of The Moodsters to Disney,
which Disney then allegedly used without
compensating Plaintiffs, and copyright infringement
of the individual characters and the ensemble of
characters. See Dkt. # 1, Complaint. Plaintiffs
subsequently filed a first amended complaint on
September 20, 2017. See Dkt. # 27, First Amended
Complaint (“FAC”). Defendants filed a motion to
dismiss the implied-in-fact contract claim and all of
the copyright infringement claims, see Dkt. # 32,
which the Court granted. See Dkt. # 47 (“Order”).
Plaintiffs then filed a second amended complaint,
which Defendants again move to dismiss.

37a
II.

Legal Standard

To survive a motion to dismiss under Rule 12(b)(6),
a complaint must “contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). In assessing the adequacy of the
complaint, the court must accept all pleaded facts as
true and construe them in the light most favorable to
the plaintiff. See Turner v. City & Cty. of S.F., 788
F.3d 1206, 1210 (9th Cir. 2015); Cousins v. Lockyer,
568 F.3d 1063, 1067 (9th Cir. 2009). The court then
determines whether the complaint “allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Iqbal, 556 U.S. at
678. However, “[t]hreadbare recitals of the elements
of a cause of action, supported by mere conclusory
statements, do not suffice.” Id. Accordingly, “for a
complaint to survive a motion to dismiss, the nonconclusory factual content, and reasonable inferences
from that content, must be plausibly suggestive of a
claim entitling the plaintiff to relief.” Moss v. U.S.
Secret Serv., 572 F.3d 962, 969 (9th Cir. 2009)
(internal quotation marks omitted).
III.

Discussion

The Court notes at the outset that Plaintiffs were
not granted leave to amend their implied-in-fact
contract breach claim (the first cause of action), but it
remains in the amended complaint “in order to
preserve the claim for appellate review.” SAC 24 n. 6.
The Court will therefore not address it here. What
remains are Plaintiffs’ copyright infringement claims

38a
regarding each individual character and the ensemble
of characters.
A.

Claims Three through Six: Individual
Characters

Plaintiffs allege that Defendants infringed their
copyrights in the Happy (count 3), Sadness (count 4),
Anger (count 5), and Fear (count 6) characters. See
generally SAC. In its prior Order, the Court
determined that Plaintiffs’ characters did not meet
the Ninth Circuit’s rigorous standard for
copyrightability of a stand-alone character outside of
the work it inhabits. See Order at 9. Characters
standing alone “are not ordinarily entitled to
copyright protection.” Blizzard Entm’t, Inc. v. Lilith
Games (Shanghai) Co., 149 F. Supp. 3d 1167, 1173-74
(N.D. Cal. 2015). To be copyrightable independent of
the underlying work in which the character appears,
the character must (1) have “physical as well as
conceptual qualities,” (2) “be ‘sufficiently delineated’
to be recognizable as the same character whenever it
appears,” and (3) be “‘especially distinctive’ and
‘contain some unique elements of expression.’” DC
Comics v. Towle, 802 F.3d 1012, 1020-21 (9th Cir.
2015). The test is conjunctive; Plaintiffs must
establish that all three elements are met. The parties
agreed that the first element of the test was met,
because The Moodsters characters are graphically
depicted in both the bible and pilot. The Court
previously determined, however, that the characters
were neither sufficiently delineated nor especially
distinctive, and therefore not independently
protectable. See Order at 6-9. The Court determined
that the characters lacked “specific traits on par with

39a
those of the iconic characters” that had achieved
independent copyrightability, such as Sherlock
Holmes, Tarzan, Superman, and James Bond. Id. at 7.
The Court distinguished those characters, who are
“instantly recognizable as the same character[s]
whenever they appear,” from the Moodsters. Id. The
Court further stated,
Plaintiffs’ characters have been
distributed only twice: once in The
Moodsters bible, and once in the
YouTube pilot. With a viewership of only
1,400, the pilot did not likely engender
the kind of “widely identifiable”
recognition of the characters’ traits
envisioned by the Ninth Circuit; that
court denied protection for a character
that had “appeared in only one home
video that sold approximately 17,000
copies,” for lack of “consistent, widely
identifiable traits.” Rice v. Fox
Broadcasting Co., 330 F.3d 1170, 1175
(9th Cir. 2003). More problematic for
Plaintiffs is the requirement that such
traits be persistent enough, over time or
over multiple iterations, to produce such
recognition. Here, the characters have
appeared only twice—and their names
had all changed from the first
appearance to the second.
Id. at 7-8.
That the first element of the three-part test is met
is again undisputed. See generally Mot., Opp.

40a
Plaintiffs’ amended complaint, and the factual
allegations regarding each specific character, contain
two new arguments: that the existence of the “second
generation” of characters demonstrates the characters
are sufficiently delineated, and the development
process for each character demonstrates they are
especially distinctive. The Court will address each
new argument in turn.
i. Sufficiently Delineated: “Second
Generation” Moodsters
Plaintiffs continue to assert that the characters,
“as reflected in The Moodsters Bible and Pilot,
sufficiently delineate these characters so they are
recognizable whenever they appear.” SAC ¶¶ 143,
205, 242, 279, 315. To bolster this claim, Plaintiffs
now contend that there is a “second generation” of
Moodsters that was developed in 2012-13 by a
company called JellyJam. SAC ¶ 156; Mot. 4.
Merchandise based on the second generation
characters was sold at Target and later through many
online retailers. SAC ¶ 156. Plaintiffs did not mention
the second generation Moodsters in their first two
complaints; nevertheless, Plaintiffs now argue that
this second generation of characters is evidence that
The Moodsters characters “have persisted over time.”
Opp. 10. Plaintiffs allege that “both Moodsters
iterations”—the bible and pilot being the first
iteration, and the JellyJam characters being the
second iteration—“retain core characteristics and
traits.” SAC ¶ 158; Opp. 16.
Defendants begin by arguing that Plaintiffs are not
even the copyright owners of the second generation

41a
characters; JellyJam is. Mot. 4. Plaintiffs assert that
JellyJam is simply “another company owned by Ms.
Daniels,” and as owner of the copyright in the original
characters, she retains certain rights to the JellyJam
characters as well. Opp. 16; see also Towle, 802 F.3d
at 1023 (“The owner of the underlying work retains a
copyright in that derivative work with respect to all
elements that the derivative creator drew from the
underlying and employed in the derivative work.”).
Defendants also argue that it is “misleading and
impermissible” for Plaintiffs to allege copyright
infringement of JellyJam’s products, which were
developed after Inside Out. Mot. 7. Neither of
Defendants’ arguments are relevant, however,
because Plaintiffs are not alleging that Defendants
infringed the JellyJam characters. Rather, they
present the second generation characters as evidence
that traits and attributes which appeared in the 2005
bible and 2007 pilot have persisted over time, in
additional works and media (the second generation),
and “continue to this day.” SAC ¶ 156; Opp. 10.
Plaintiffs assert that the second generation
characters bolster their claim that The Moodsters are
instantly “recognizable wherever they appear,”
because their traits “have persisted from creation
through—and beyond—the pilot episode in 2007.”
SAC ¶ 243. The second generation characters,
however, undermine that very argument. In its prior
Order, the Court noted that the (first generation)
characters’ names had not even remained constant
from the bible to the pilot. See Order at 7-8. The
JellyJam characters again have new names,
constituting the third set of names in as many

42a
iterations. See SAC ¶¶ 57; Mot. 3. 1 The fear character,
for instance, began as Shake in the bible and became
Scootz in the pilot; in the JellyJam products, he is
called Quigly. SAC ¶ 57; Mot. 3. Additionally, the
first generation of Moodsters lived in a world called
Moodsterville, which had its own geographic
landmarks and destinations, while the new characters
live in a magician’s top hat under a child’s bed. Mot.
3. The characters are now “mood detectives” and
“little detectives,” and wear detective hats and
capelettes. Id. 3; SAC ¶ 156.
In addition to these basic biographical changes, the
second generation characters bear little physical
resemblance to the first. The first set of characters
have an alien- or insect-like appearance, with
elaborate antennae and eyes, and sometimes horns,
sitting atop their heads. See SAC ¶ 53. They are very
thin with large, furry feet, and arms that reach nearly
to the ground.
See id. The JellyJam characters have a wholly
different look. They are plump and round, with
traditional placement of the eyes in the face. They
have no antennae or horns; they wear glasses, hats,
and costumes. See id. ¶ 156. They have regularly1 Defendants request that the Court take judicial notice of the
“Meet the Moodsters” storybook in which the second generation
characters are described. See Dkt. # 56, Request for Judicial
Notice, Ex. C. Plaintiffs do not object. See Dkt. # 60, Plaintiffs’
Opposition to Disney’s Request for Judicial Notice at 3. The
storybook is also referenced in the complaint. See SAC ¶¶ 156,
194. Defendants’ request for judicial notice of the “Meet the
Moodsters” Storybook is therefore GRANTED.

43a
proportioned arms, hands, and feet. See id. Their
hands are now humanoid, while their feet are no
longer covered in large fur tufts. See id. They have a
soft, teddy-bear-like shape and appearance, unlike the
bug or alien-like appearance of the first characters.
Only each character’s color is the same as in the first
generation of characters. See id. ¶¶ 53, 156.
Characters that courts have found sufficiently
delineated despite changes in appearance over time
include James Bond and Godzilla. The Ninth Circuit
explained,
The character “James Bond” qualifies
for copyright protection because, no
matter what the actor who portrays this
character looks like, James Bond always
maintains his “cold-bloodedness; his
overt sexuality; his love of martinis
‘shaken, not stirred;’ his marksmanship;
his ‘license to kill’ and use of guns; his
physical
strength;
[and]
his
sophistication.” Similarly, while the
character “Godzilla” may have a
different appearance from time to time,
it is entitled to copyright protection
because it “is always a pre-historic, firebreathing, gigantic dinosaur alive and
well in the modern world.”
Towle, 802 F.3d at 1020.
The Court is unpersuaded that the second
generation Moodsters could be “widely” or “instantly”
recognized as being the same characters as those in

44a
the bible and pilot despite their wholesale changes in
appearance. The inclusion in the amended complaint
of the second generation characters undermines
Plaintiffs’ argument; it demonstrates that the
majority of the characters’ traits, including such basic
qualities as their names, are fluid. The underlying
traits that remain the same do not give rise to the
instant recognition enjoyed by James Bond or
Godzilla.
Plaintiffs further argue that if this second
generation of characters is “relevant to the
copyrightability of The Moodsters,” it would confirm
that copyright arose in 2005 when the original
characters were “sufficiently fixed.” Opp. 16. Where
character traits change or develop over time, however,
courts look to when the character first “displayed
consistent, widely identifiable traits” and “attributes
[that are] consistently portrayed” to assess when
copyright arose. Fleisher Studios, Inc. v. A.V.E.L.A.,
Inc., 772 F. Supp. 2d 1135, 1147 (C.D. Cal. 2008)
(emphasis added). Therefore, even if the second
generation characters did render The Moodsters
characters distinctive enough for independent
copyrightability, the characters would become
protectable at the point when they displayed
consistent, widely identifiable traits—in other words,
when the second generation characters were
developed. As Defendants note, “it would not have
retroactive effect to make the ‘first generation’
characters independently protectable at the time of the
alleged copying.” Reply 6 (emphasis added). A
derivative work is “independent of, and does not affect
or enlarge the scope . . . of, any copyright protection in
the preexisting material.” 17 U.S.C. § 103(b). The

45a
Court agrees that even if the second generation
characters “could have helped the Moodsters cross the
threshold into independent copyrightability,” Reply 6,
the first generation characters, who had not yet
demonstrated consistent, widely identifiable traits,
would not retroactively become protectable—and thus
would not have been subject to copyright at the time
of the alleged infringement.
ii. Especially Distinctive: Development
Process
Plaintiffs have also added facts surrounding the
development of the characters, which Plaintiffs point
to as evidence that the characters are especially
distinctive. The Court begins by noting that the
specific traits and attributes of each character, which
the Court in its prior Order found were not especially
distinctive—and thus did not meet the third element
of the test—remain the same from the first to the
second amended complaint. Compare, e.g., FAC ¶¶
168, 169, 170 with SAC ¶¶ 199, 200, 205 (describing
the Happy character), and FAC ¶¶ 182, 183, 184 with
SAC ¶¶ 236, 237, 242 (describing the Sadness
character). Plaintiffs allege that development of The
Moodsters characters was aided by emotional
intelligence experts who advised Plaintiffs “about the
script and attributes and traits of the characters,
including suggesting facial expressions and dialogue
for particular characters based on their review and
interpretation of scientific research on emotions.” SAC
¶¶ 147, 209, 246, 283, 310. Plaintiffs also used “focus
groups with children and their parents,” led by
“leading professors at Yale University,” in developing
the characters. Id. ¶¶ 146, 148, 210, 247, 284, 320. The

46a
children “understood, recognized, and enjoyed the
characters,” and 96% of children polled liked the show.
Id. ¶ 148. Moreover, the pilot “cost over a third of the
$3.3 million invested in The Moodsters Co.” Id. ¶ 146.
Finally, Plaintiffs add that “[l]eading entertainment
companies reviewed” The Moodsters, including PBS,
Toys “R” Us, and Nickelodeon, and none of them
remarked that the characters lacked detail. Id. ¶ 154.
Plaintiffs assert that these new facts are “objective
evidence that the characters are not so lightly
sketched.” Opp. 9. The Court disagrees. None of the
new contentions bear on the finished product: the
characters that appeared in The Moodsters bible and
pilot, which the Court has already considered. For
instance, the Court has already noted that characters
must be especially distinctive “vis-à-vis other
characters, outside of the work in which they appear.”
Order at 8 (emphasis in original). That children in a
focus group recognized the characters as distinct from
one another (rather than from other characters
outside of the pilot) is immaterial; similarly, that the
children enjoyed the show or that their focus group
was led by leading professors has no bearing on the
Court’s analysis of the characters themselves and how
they were represented in the bible and pilot once
Plaintiffs’ extensive development process was
complete.
The Court in its prior Order assessed the
distinctiveness of the characters and determined that
they fell short of the Ninth Circuit’s rigorous test for
independent copyrightability. The process by which
those characters were developed does not change the
finished result.

47a
The Court determines that Plaintiffs’ amended
complaint suffers from the same deficiencies as the
first amended complaint, and the characters are not
independently copyrightable. Plaintiffs have failed to
meet both the second and third prongs of the Ninth
Circuit’s three-part test. Accordingly, the Court
GRANTS Defendants’ motion to dismiss Plaintiffs’
third, fourth, fifth, and sixth causes of action.
B. Claim Two: Ensemble of Characters
Plaintiffs also include a claim for infringement of
the ensemble of characters. SAC ¶ 135. Plaintiffs
begin by devoting numerous paragraphs to detailing
Disney’s past efforts to protect their own copyrights,
such as by lobbying for the “Mickey Mouse Protection
Act,” which extended the term of copyright protection,
and noting that Disney “recognizes the importance of
copyrights to its business,” and “provides notice to the
world that [the Inside Out] characters are protected
by copyright.” Id. ¶¶ 126, 124, 128. That “DisneyPixar is famous for aggressively protecting its works—
and specifically its animated characters—by
copyright” has no bearing on the Court’s analysis. Id.
¶ 125.
In its prior Order, the Court determined that
“Plaintiffs have failed to advance an argument” as to
how the ensemble of “lightly sketched” characters
merits copyright protection. Order at 9. Plaintiffs now
allege that The Moodsters ensemble of characters is
independently copyrightable under either the Ninth
Circuit’s three-part test, or the “story being told”
standard. Id. ¶ 140; Opp. 7, 12. They first argue that
the three-part test is met because the “traits and

48a
attributes of the ensemble of Moodsters characters, as
reflected in The Moodsters Bible and Pilot, sufficiently
delineate these characters so that they are
recognizable whenever they appear.” Id. ¶ 143.
Plaintiffs also allege that the characters are “unique”
and “individual,” and “no previously animated works
featured a collection of five characters each
represented by a single emotion.” Id. ¶ 164. The
“originality of these characters” renders them
“especially distinctive.” Id. Plaintiffs’ amended
complaint regarding the ensemble claim includes the
same new contentions regarding the characters’
development and the second generation characters to
support their argument that the ensemble merits
copyright protection under the Ninth Circuit test. The
Court has already addressed the three-part test as to
the individual characters, and agrees with Defendant
that the characters are neither delineated nor
distinctive “to a degree ‘sufficient to afford copyright
protection to a character taken alone,’” and thus as an
ensemble, under the Ninth Circuit test.
Plaintiffs next allege, in the alternative, that the
ensemble is protectable as “the story being told”
because “The Moodsters only exists because of The
Moodsters characters.” Id. ¶¶ 166-67. Defendants
argue that there is no longer any such standard after
Towle, which consolidated relevant precedent when it
established the three-part test. Mot. 7. Plaintiffs
disagree, countering that “courts have not hesitated to
apply the [story being told] standard,” and that
Defendants therefore have offered “no substantive
response” to Plaintiffs’ “story being told” claim. Opp.
12. Defendants are correct, however, that the cases
cited by Plaintiffs were decided before Towle, not after

49a
it; furthermore, in cases that dealt with visually
depicted characters (rather than literary characters),
“‘the story being told test’ [was] inapplicable.”
Anderson v. Stallone, No. 87–0592 WDKGX, 1989 WL
206431, at *6-7 (C.D. Cal. Apr. 25, 1989); see also
Metro-Goldwyn-Mayer, Inc. v. Am. Honda Motor Co.,
900 F. Supp. 1287, 1295-96 (C.D. Cal. 1995)
(questioning the continued viability of the story being
told test as applied to graphic characters). As
Defendants note, after Towle, copyright in graphically
depicted characters “is available only ‘for characters
that are especially distinctive.’ To meet this standard,
a character must be ‘sufficiently delineated’ and
display ‘consistent, widely identifiable traits.’” Towle,
820 F. 3d at 1019 (quoting Rice v. Fox Broadcasting
Co., 330 F.3d 1170 (9th Cir. 2003).
Because the Court has determined that Plaintiffs’
characters, either individually or as an ensemble, do
not meet this standard, it GRANTS Defendants’
motion to dismiss Plaintiffs’ second cause of action.
IV.

Leave to Amend

Whether to grant leave to amend rests in the sound
discretion of the trial court. See Bonin v. Calderon, 59
F.3d 815, 845 (9th Cir. 1995). The Court considers
whether leave to amend would cause undue delay or
prejudice to the opposing party, and whether granting
leave to amend would be futile. See Sisseton-Wahpeton
Sioux Tribe v. United States, 90 F.3d 351, 355 (9th Cir.
1996). Generally, dismissal without leave to amend is
improper “unless it is clear that the complaint could
not be saved by any amendment.” Jackson v. Carey,
353 F.3d 750, 758 (9th Cir. 2003).

50a
Because the Court has already granted Plaintiffs
leave to amend their complaint and they have failed
to alleviate the Court’s concerns, the Court
determines that amendment would be futile. Leave to
amend is therefore DENIED.
V.

Conclusion

For the foregoing reasons, the Court GRANTS
Defendants’ motion to dismiss Plaintiffs’ second,
third, fourth, fifth, and sixth causes of action.
Plaintiffs’ first cause of action has already been
dismissed, but remains in the amended complaint to
preserve it for appellate review. This order therefore
closes the case.
IT IS SO ORDERED.

51a
APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. 17-4527 PSG (SK)

Date January 31, 2018

Title Denise Daniels and The Moodsters Company v.
Walt Disney Company, et al.
Present: The Honorable Philip S. Gutierrez, United
States District Judge
Wendy Hernandez
Deputy Clerk
Attorneys Present for
Plaintiff(s):
Not Present

Not Reported
Court Reporter
Attorneys Present for
Defendant(s):
Not Present

Proceedings (In Chambers):
The Court
GRANTS Defendants’ Motion to Dismiss
Before the Court is Defendants Walt Disney
Company, Disney Enterprises, Inc., Disney Consumer
Products and Interactive Media, Inc., Disney
Interactive Studios, Inc., Disney Shopping, Inc., and
Pixar’s (“Defendants” or “Disney”) motion to dismiss
Plaintiffs Denise Daniels and The Moodsters
Company’s (“Plaintiffs”) complaint. Dkt. # 32 (“Mot.”).
Plaintiffs timely opposed, see Dkt. # 40 (“Opp.”) and
Defendant replied, see Dkt. # 41 (“Reply”). The Court

52a
heard oral arguments on January 29, 2018. See Fed.
R. Civ. P. 78; L.R. 7–15. After considering the parties’
papers and arguments, the Court GRANTS
Defendants’ motion.
I.

Background

Plaintiff Denise Daniels is a nationally recognized
child development expert with over 40 years of
experience working in the field of children’s social and
emotional development. See Dkt. # 27, First Amended
Complaint (“FAC”) ¶¶ 26-35. She co-founded the
national non-profit National Childhood Grief
Institution; she has been called upon to help children
cope with grief and loss, after such events as Desert
Storm, Hurricane Katrina, Columbine, and
September 11. Id. ¶¶ 28-29. She has appeared on
national television and has published nine children’s
self-help books relating to emotional wellbeing. Id. ¶
35.
Daniels developed The Moodsters, a cartoon world
populated by characters that embody individual
emotions, to help children understand and regulate
their emotions. Opp. 3. Each Moodster is color-coded
and anthropomorphic—happiness (yellow), sadness
(blue), anger (red), fear (green), and love (pink). Id. ¶
53. Daniels and The Moodsters Company recruited
top industry talent and emotional intelligence experts
to develop and produce The Moodsters. Opp. 3. In
November 2005, Plaintiffs published a “bible” for The
Moodsters, a contemplated “animated TV show for
preschoolers.” FAC, Ex. 3 at 69. In 2007, Plaintiffs

53a
posted the pilot episode for The Moodsters to YouTube.
FAC, Ex. 4 (2007 pilot).
Between 2006 and 2009, Plaintiffs allege they
pitched The Moodsters to Disney every year; many
high-ranking Disney executives received the pitch
materials, allegedly passing them around to other
division heads. Id. ¶¶ 67-69. Ultimately, Plaintiffs
allege a conversation between Daniels and Pete
Docter, director of Inside Out, about The Moodsters
(the “Docter Phone Call”). Id. ¶ 71. In 2010, Disney
Pixar began development on Inside Out, a feature film
about the anthropomorphized emotions that live
inside the head of an 11-year-old girl. The film
features five color-coded emotions as characters—joy
(yellow), sadness (blue), anger (red), fear (purple), and
disgust (green). Id. ¶¶ 86-90. Inside Out grossed more
than
$350,000,000
domestically
and
over
$850,000,000 worldwide. Id. ¶ 93.
Plaintiff Daniels filed suit on June 19, 2017,
alleging breach of implied-in-fact contract arising
from Plaintiffs’ disclosure of The Moodsters to Disney,
which Disney then allegedly used without
compensating Plaintiffs. See Dkt. # 1, Complaint.
Daniels amended her complaint on September 20,
2017, adding Plaintiff The Moodsters Company and
adding five copyright infringement claims. See Dkt. #
27, First Amended Complaint (“FAC”). Plaintiffs do
not allege that Inside Out infringes The Moodsters as
a work; rather, they allege Defendants infringed their
copyright in four of the Moodsters characters and in
the ensemble of characters. See id. Defendant now

54a
moves to dismiss the implied-in-fact contract claim
and all of the copyright infringement claims. See Mot.
II.

Legal Standard

Under Federal Rule of Civil Procedure 12(b)(6), a
claim may be dismissed if plaintiff fails to state a
claim upon which relief may be granted. Fed. R. Civ.
P. 12(b)(6). To survive a 12(b)(6) motion to dismiss, a
complaint must “contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). When deciding a Rule 12(b)(6)
motion, the court must first accept the facts pleaded
in the complaint as true, and construe them in the
light most favorable to the plaintiff. Faulkner v. ADT
Sec. Servs., Inc., 706 F.3d 1017, 1019 (9th Cir. 2013);
Cousins v. Lockyer, 568 F.3d 1063, 1067–68 (9th Cir.
2009). The court, however, is not required to accept
“legal conclusions . . . cast in the form of factual
allegations.” W. Mining Council v. Watt, 643 F.2d 618,
624 (9th Cir. 1981); see Iqbal, 556 U.S. at 678;
Twombly, 550 U.S. at 555.
After accepting all non-conclusory allegations as
true and drawing all reasonable inferences in favor of
the plaintiff, the court must then determine whether
the complaint alleges a plausible claim to relief. See
Iqbal, 556 U.S. at 679–80. “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.
… The plausibility standard is not akin to a

55a
‘probability requirement,’ but it asks for more than a
sheer possibility that a defendant has acted
unlawfully.” Id. at 678. “Generally, the scope of review
on a motion to dismiss for failure to state a claim is
limited to the contents of the complaint.” Marder v.
Lopez, 450 F.3d 445, 448 (9th Cir. 2006); see also Van
Buskirk v. Cable News Network, Inc., 284 F.3d 977,
980 (9th Cir. 2002) (“Ordinarily, a court may look only
at the face of the complaint to decide a motion to
dismiss.”). Courts may also, however, consider
“attached exhibits, documents incorporated by
reference, and matters properly subject to judicial
notice.” In re NVIDIA Corp. Sec. Litig., 768 F.3d 1046,
1051 (9th Cir. 2014), cert. denied sub nom. Cohen v.
Nvidia Corp., 135 S. Ct. 2349 (2015).
III.

Judicial Notice

Under Federal Rule of Evidence 201, the court “can
take judicial notice of ‘[p]ublic records and
government documents available from reliable
sources on the Internet,’ such as websites run by
governmental agencies.” Gerritsen v. Warner Bros.
Entm’t Inc., 112 F. Supp. 3d 1011, 1033 (C.D. Cal.
2015) (quoting Hansen Beverage Co. v. Innovation
Ventures, LLC, No. 08-CV-1166-IEG (POR), 2009 WL
6598891, at *2 (S.D. Cal. Dec. 23, 2009)); see also
L’Garde, Inc. v. Raytheon Space & Airborne Sys., 805
F. Supp. 2d 932, 937-38 (C.D. Cal. 2011) (noting that
public records from the Internet are “generally
considered not to be subject to reasonable dispute”)
(internal quotation marks omitted). Further, “[p]ublic
records and government documents are generally
considered ‘not to be subject to reasonable dispute.’”

56a
United States ex rel. Dingle v. BioPort Corp., 270 F.
Supp. 2d 968, 972 (W.D. Mich. 2003) (citing Jackson
v. City of Columbus, 194 F. 3d 737, 745 (6th Cir.1999)).
Rule 201(b) of the Federal Rules of Evidence permits
judicial notice of facts that can be “accurately and
readily determined from sources whose accuracy
cannot reasonably be questioned.” Fed. R. Evid.
201(b).
Defendant requests judicial notice of over 200
exhibits comprising over 1,300 pages of documents;
the Court will consider only those which figure into its
analysis below. See Dkt. # 33, Defendants’ Request for
Judicial Notice (“RJN”).
III.

Discussion

A. Implied-in-Fact Contract Claim
Plaintiffs allege that Defendants used ideas from
The Moodsters in creating Inside Out without
compensating Plaintiffs for the use. FAC ¶¶ 112-21.
Defendants argue that this claim is time-barred and
that it fails as a matter of law. The Court determines
that the second issue is dispositive, so it need not
address the first.
A plaintiff cannot predicate an implied-in-fact
contract claim on a work that was publicly disclosed
before plaintiff disclosed it to defendant in exchange
for payment if it is used. The California Supreme
Court established the principle underlying this type of
claim in Desny v. Wilder, 46 Cal. 2d 715 (1956),
holding that “after voluntary communication to

57a
others, [ideas are] free as the air to common use.” Id.
at 731-32. However, a duty to pay compensation may
arise where a person has clearly conditioned the
disclosure upon an obligation to pay, and the offeree,
with knowledge of that duty, voluntarily accepts the
information and uses the idea. Id. at 738-39. The court
further stated that “[t]he law will not imply a promise
to pay for an idea from the mere facts that the idea
has been conveyed, is valuable, and has been used for
profit; this is true even though the conveyance has
been made with the hope or expectation that some
obligation will ensue.” Id. at 739. The Desny court
cautioned that “[t]he law will not in any event, from
demands stated subsequent to the unconditioned
disclosure of an abstract idea, imply a promise to pay
for the idea, for its use, or for its previous disclosure.”
Id.
Citing Desny, the court in Quirk v. Sony Pictures
Ent., Inc., No. C 11–3773 RS, 2013 WL 1345075, at
*12 (N.D. Cal. Apr. 2, 2013), held that a plaintiff’s
publication of a work prior to defendant’s acquisition
of the work constituted “unconditional disclosure,”
and no implied promise to pay for freely available
ideas could be implied. Id. at *11-12. That court held
that the “touchstone” of such a claim is “whether the
plaintiff can be said to be disclosing something that is
not otherwise freely available to the defendant.” Id.
at *12. The issue, then, is whether Plaintiffs made The
Moodsters freely available prior to their disclosure of
the work to Disney.
Daniels and her team “contacted Disney Pixar in
2006, 2007, 2008, and 2009 about The Moodsters.”

58a
FAC ¶ 61. Plaintiffs allege that they submitted The
Moodsters to Disney, and did so “as is custom and
common in the entertainment industry, with a
reasonable expectation that Disney Pixar would
compensate Daniels if Disney Pixar used their ideas.
Thus, Daniels . . . provided ideas and materials to
Disney Pixar for sale in exchange for compensation
and credit if Disney Pixar used such ideas or
materials.” FAC ¶ 114. They further allege that
Disney “accepted the disclosure of the ideas in The
Moodsters with an expectation that it would have to
compensate Daniels and The Moodsters Company if
Disney Pixar used this idea in any television, motion
picture, merchandise, or otherwise.” Id. ¶ 115.
Plaintiffs have offered limited facts in support of the
assertion that Disney affirmatively accepted
disclosure or had an expectation that it would
compensate Daniels; certainly, they have alleged no
conversation or writing between the parties to that
effect. Plaintiffs’ FAC alleges that Daniels “contacted
a number of individuals” at Disney, and those
individuals “received information” about The
Moodsters. FAC ¶¶ 62-69. Plaintiffs do not provide
details of what “sharing the materials” entailed, such
as whether there were live discussions, meetings, or
simply mailings, and what those discussions entailed.
Nonetheless, Plaintiffs have alleged that in 2006 and
2007, Plaintiffs shared The Moodsters with Playhouse
Disney; that in 2008, Daniels shared the materials
with Thomas Staggs (CFO of Walt Disney Company);
and that in 2008 Staggs shared them with Roy E.
Disney and Rich Ross (President of Disney Channels
Worldwide). Id. ¶¶ 66-69. Additionally, Plaintiffs
have alleged that Daniels spoke directly by telephone

59a
to Pete Docter, walking him “through in detail the
characters, curriculum, and concept underlying The
Moodsters.” Id. ¶ 71.
However, Plaintiffs registered The Moodsters bible
with the Copyright Office in 2005, and registered The
Moodsters pilot on July 27, 2007 (as well as posting it
to YouTube in 2007). FAC ¶¶ 131, 132, 61; RJN, Ex.
B-1, B-2. The Court takes judicial notice of Plaintiffs’
copyright registration in The Moodsters bible, as
‘[p]ublic records and government documents available
from reliable sources on the Internet,’ such as
websites run by governmental agencies” are properly
subject to judicial notice.
Defendants argue that the 2005 registration
constitutes “publication” of the work, which “dooms
[Plaintiffs’] implied-in-fact contract claim.” Indeed,
Plaintiffs’ copyright registration in The Moodsters
bible asserts that the “date of publication” of the bible
was November 8, 2005. RJN, Ex. B-2. “Publication”
refers to “the distribution of copies or phonorecords of
a work to the public . . .” or “offering to distribute
copies or phonorecords to a group of persons for
purposes of further distribution.” 17 U.S.C. § 101. A
work is “published” if it is distributed with “no explicit
or implicit restrictions with respect to [the] disclosure
of [the] contents” of the work. H.R. Rep. No. 94-1476
at 138 (1976). Plaintiffs’ registration states that the
work was published in 2005 with no implicit or explicit
restrictions, thus constituting publication. Having
been unconditionally disclosed both in 2005 and 2007
(with the pilot’s copyright registration and posting
online), The Moodsters work was freely available

60a
when Plaintiffs made contact with Disney. Any
contact the parties had after November 2005 cannot,
therefore, give rise to an implied-in-fact contract
claim.
Accordingly, the Court GRANTS Defendants’
motion to dismiss the implied-in-fact contract claim.
B.

Copyright Infringement: The Moodsters
Characters

Plaintiffs registered The Moodsters pilot with the
United States Copyright Office on July 27, 2007. FAC
¶ 131. They also registered The Moodsters bible. Id. ¶
132. Plaintiff claims copyright protection in—and
infringement by Defendants of—the individual
Moodsters (the characters), not The Moodsters work
itself. See generally FAC. Defendants argue that
Plaintiffs’ copyright infringement claims fail because
the characters are not protectable in the first instance,
either independently or as an ensemble, and because
the Inside Out characters are not substantially
similar to The Moodsters. See generally Mot. Because
the Court finds the first issue dispositive, it need not
reach the second.
Plaintiffs assert infringement claims only with
respect to the individual characters and the ensemble
of characters, rather than in the work itself, so the
Court analyzes Plaintiffs’ copyright protection claims
through the lens of the Ninth Circuit’s three-part test
to determine whether a character deserves copyright
protection independent of the work in which it
appears.

61a
Characters standing alone “are not ordinarily
entitled to copyright protection.” Blizzard Entm’t, Inc.
v. Lilith Games (Shanghai) Co., 149 F. Supp. 3d 1167,
1173-74 (N.D. Cal. 2015). To be copyrightable
independent of the underlying work in which the
character appears, a character must (1) have “physical
as well as conceptual qualities,” (2) “be ‘sufficiently
delineated’ to be recognizable as the same character
whenever it appears,” and (3) be “‘especially
distinctive’ and ‘contain some unique elements of
expression.’” DC Comics v. Towle, 802 F.3d 1012,
1020-21 (9th Cir. 2015).
i.

Physical Qualities

The Moodsters have physical as well as conceptual
qualities, as they have appeared graphically in both
the bible and the pilot. They are not “mere literary
character[s],” as they have physical attributes
embodied in the 2-dimensional renderings of the
characters. Indeed, Defendants argue only that the
second and third elements of the three-part test are
not met. See Mot. 1. The characters therefore meet the
first element.
ii.

Sufficiently Delineated

“[C]ourts have deemed the persistence of a
character’s traits and attributes to be key to
determining whether the character qualifies for
copyright protection.” Id. (emphasis added). To be
protectable, a character must be “recognizable as the
same character whenever it appears.” DC Comics, 802
F.3d at 1020-21. Characters such as Sherlock Holmes,

62a
Tarzan, Superman, and James Bond have been
deemed to have “certain character traits that have
been developed over time, making them instantly
recognizable wherever they appear.” MGM, Inc. v.
Am. Honda Motor Co., 900 F. Supp. 1287, 1296 (C.D.
Cal. 1995). In finding James Bond sufficiently
delineated, the court looked to his “character traits
that have been developed over time through the
sixteen films in which he appears,” finding that his
“cold-bloodedness; his overt sexuality; his love of
martinis ‘shaken, not stirred;’ his marksmanship; his
‘license to kill’ and use of guns; his physical strength;
[and] his sophistication” so delineated the character
that his “specific qualities remain constant despite the
change in actors.” Id. Similarly, in finding the
character of Batman protectable, the court cited to
Batman’s 63 years of fighting crime, and his “unique,
protectable characteristics, such as the iconographic
costume elements and his unique life story.” Sapon v.
DC Comics, No. 00 CIV. 8992(WHP), 2002 WL 485730,
at *3-4 (S.D.N.Y. Mar. 29, 2002).
Where, on the other hand, characters are “lightly
sketched through only short summaries and
‘whatever insight into their characters may be derived
from their dialogue and action,’” they are not entitled
to protection. Fun with Phonics, LLC v. LeapFrog
Enterprises, Inc., CV 09-916- GHK (VBXx), 2010 WL
11404474, at *5-6 (C.D. Cal. Sept. 10, 2010). Plaintiffs’
characters have been sketched through the short
summaries contained in The Moodsters bible, and in
the pilot episode. The description of the character Zazz
(the happy character), for instance, states that he
“wakes up each morning with a smile on his face and

63a
a friendly attitude,” “he’s usually quite optimistic and
enthusiastic,” and “he spreads cheer wherever he
goes.” Dkt. 27-3 Ex. 3, The Moodsters Bible at 3. The
anger character is described as “the most likely
Moodster to get frustrated and ‘blow her top,’” she’s
“very generous,” and “she’s determined to do her best.”
Id. at 4. The sadness character is “prone to doom and
gloom,” “weeps copiously,” and is “a totally sweet guy”
who feels “particularly dejected when he’s left out of
things.” Id. at 6. These are not specific traits on par
with those of the iconic characters noted above, such
that they would be “instantly recognizable wherever
they appear.”
Further, Plaintiffs’ characters have been
distributed only twice: once in The Moodsters bible,
and once in the YouTube pilot. With a viewership of
only 1,400, the pilot did not likely engender the kind
of “widely identifiable” recognition of the characters’
traits envisioned by the Ninth Circuit; that court
denied protection for a character that had “appeared
in only one home video that sold approximately 17,000
copies,” for lack of “consistent, widely identifiable
traits.” Rice v. Fox Broadcasting Co., 330 F.3d 1170,
1175 (9th Cir. 2003). More problematic for Plaintiffs
is the requirement that such traits be persistent
enough, over time or over multiple iterations, to
produce such recognition. Here, the characters have
appeared only twice—and their names had all
changed from the first appearance to the second. See
FAC ¶¶ 54-59.

64a
iii. Especially Distinctive
Courts look at “visual depictions, name, dialogue,
relationships with other characters, actions and
conduct, personality traits, and written descriptions—
to determine whether [a character] is sufficiently
delineated such that it is a unique expression.” Fun
with Phonics, 2010 WL 11404474, at *5-6. Characters
are “not particularly distinctive” when they “fit
general, stereotypical categories . . . Consequently,
these characters are not entitled to copyright
protection.” McCormick v. Sony Pictures Entm’t, 2009
WL 10672263, at *14 (C.D. Cal. July 20, 2009), aff’d,
411 F. App’x 122 (9th Cir. 2011).
In their analysis of the “especially distinctive”
prong, Plaintiffs originally pointed to the Fun with
Phonics case, calling the court’s analysis of character
copyright protection “particularly relevant to this
case” where it concluded that “a yellow letter I
dripping with green slime to illustrate the word ‘icky’
was a copyrighted character.” Opp. 8. They further
argued that the “icky” character was found to be
“protectable expression,” which “supports the
conclusion that . . . so are the expressions of The
Moodsters characters.” Id. In fact, the court in that
case came to the opposite conclusion, finding
“Plaintiff’s ‘characters’ do not warrant independent
copyright protection.” Fun with Phonics, 2010 WL
11404474, at *6 (emphasis added). Plaintiffs
submitted a notice of errata conceding this mistake,
see Dkt. # 45, Notice of Clarification/Errata, but
continue to argue that “the principle of law in
Leapfrog . . . supports the conclusion that certain

65a
expressive elements are protectable expression.” Id.
2. Though that may be so, characters must
nevertheless meet the elements of the Ninth Circuit’s
test to be independently protectable.
Plaintiffs claim that their characters are
“recognizable as the same character whenever they
appear because they are identified by individual colors
and emotions” such that “there is no confusion which
character is which when one comes on scene.” Opp. 7.
As Defendants correctly note, distinguishing the
characters from one another when they appear within
the work itself “is not the Ninth Circuit’s standard for
copyright protection of a character.” Reply 4. Rather,
the characters’ actions and conduct, personality traits,
and other characteristics must do more than “fit
general, stereotypical categories” such that they are
especially distinctive vis-à-vis other characters,
outside of the work in which they appear.
Defendants note that “Plaintiffs’ efforts to draw
parallels between the Moodsters and [the Fun with
Phonics] characters—rather than characters with
adequately developed and especially distinctive
traits—only confirm that the Moodsters are lightlysketched characters that fail to satisfy the Ninth
Circuit’s test.” Reply 3. The Court agrees.
The Court determines that the characters within
The Moodsters do not meet the Ninth Circuit’s
rigorous test for granting independent copyright
protection to characters. Accordingly, Plaintiffs’
copyright infringement claim for each character fails,

66a
and Defendants’
GRANTED.
C.

motion

Copyrightability
Ensemble

to
of

dismiss
the

them

is

Moodsters

Having
found
the
individual
characters
unprotectable, the Court now turns to whether the
ensemble of the characters is copyrightable. Plaintiffs
cite to Paramount Pictures Corp. v. Axanar Prod., Inc.,
No. 2:15-CV-09938-RGK-E, 2017 WL 83506 (C.D. Cal.
Jan. 3, 2017), for the position that unprotectable
characters can, as an ensemble, be protected. Opp. 9.
Plaintiffs’ reading of this case, however, is incorrect.
Plaintiffs contend that the court “found groups of
characters to be protected by copyright.” Id. In fact,
the court expressly declined to decide whether the
ensemble of Klingons and Vulcans characters was
protectable, because “Plaintiffs’ allegation [wa]s that
Defendants infringe[d] the Star Trek Copyrighted
Works as a whole.” The court stated that such
characters “may be entitled to copyright protection,”
but discussed the issue only in the context of the
characters as one point of comparison, along with plot,
costumes, setting, and other elements, in the
substantial similarity analysis. Id. at *4-5.
Plaintiffs also point to the “more general”
proposition that “[o]riginal selection, coordination,
and arrangement of unprotectable elements may be
protectable expression.” L.A. Printex Indus., Inc. v.
Aeropostale, Inc., 676 F.3d 841, 849 (9th Cir. 2012)
(holding that “selecting, coordinating, and arranging
floral elements in stylized fabric designs” may be

67a
protectable expression). While it is indeed black letter
law that original selection and arrangement of
unprotectable elements can render the configuration
of those elements protectable, Plaintiffs have failed to
advance an argument as to how that principle
supports protection of the ensemble of “lightly
sketched” characters here, offering only the conclusion
that “the combination of those unique characters only
further adds to the originality and copyrightability.”
Opp. 9.
Accordingly, the Court GRANTS Defendants’
motion to dismiss Plaintiffs’ Second cause of action,
infringement of the ensemble of characters.
IV.

Leave to Amend

Whether to grant leave to amend rests in the sound
discretion of the trial court. See Bonin v. Calderon, 59
F.3d 815, 845 (9th Cir. 1995). The Court considers
whether leave to amend would cause undue delay or
prejudice to the opposing party, and whether granting
leave to amend would be futile. See Sisseton-Wahpeton
Sioux Tribe v. United States, 90 F.3d 351, 355 (9th Cir.
1996). Generally, dismissal without leave to amend is
improper “unless it is clear that the complaint could
not be saved by any amendment.” Jackson v. Carey,
353 F.3d 750, 758 (9th Cir. 2003).
At the January 29 hearing, Plaintiffs requested
leave to amend their complaint, thus indicating to the
Court that the FAC could be saved by amendment.
Leave to amend is therefore GRANTED, only as to
the copyright infringement claims.

68a
V.

Conclusion

For the forgoing reasons, the Court GRANTS
Defendant’s motion to dismiss the First cause of
action (implied-in-fact contract) WITHOUT LEAVE
TO AMEND, and GRANTS Defendants’ motion to
dismiss Plaintiffs’ Second (ensemble of characters),
Third (Happy character), Fourth (Sadness character),
Fifth (Anger character), and Sixth (Fear character)
causes of action WITH LEAVE TO AMEND.
Plaintiffs’ second amended complaint is due no later
than March 1, 2018.
IT IS SO ORDERED.

